No. 19-120

SL SE

In the Supreme Court of the Anited States

IBG LLC and Interactive Brokers LLC,

Petitioners,
v.
Trading Technologies International, Inc.,

Respondent.

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I declare that the Supplemental
Brief Under Rule 15.8 Supporting a Petition for a Writ of Certiorari filed on behalf of
Petitioners IBG LLC and Interactive Brokers LLC contains 658 words, excluding
parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

   

Executed on the 30th day of September 2019.

 

STERNE KESSLER GOLDSTEIN & Fox, PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005

202.371.2600

Counsel for Petitioners
